Department of Health and Human Services
                   OFFICE OF

              INSPECTOR GENERAL





  MOTHER FRANCES HOSPITAL

INCORRECTLY BILLED MEDICARE

   INPATIENT CLAIMS WITH 

       KWASHIORKOR




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Stephen Virbitsky

                                               Regional Inspector General

                                                   for Audit Services


                                                     September 2014
                                                      A-03-14-00006
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

 Mother Frances Hospital incorrectly billed Medicare inpatient claims with Kwashiorkor,
 resulting in overpayments of $780,000 over 4 years.

                                           INTRODUCTION


WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

OBJECTIVE

Our objective was to determine whether Mother Frances Hospital (the Hospital) complied with
Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. CMS contracts with Medicare contractors to, among
other things, process and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays inpatient hospital costs at predetermined rates for patient discharges under the
inpatient prospective payment system. The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay. The DRG and severity level are
determined according to diagnoses codes established by the International Classification of
Diseases, Ninth Revision, Clinical Modification (coding guidelines). The coding guidelines
establish diagnosis code 260 for Kwashiorkor. Because Kwashiorkor is considered a high-
severity diagnosis, using diagnosis code 260 may increase the DRG payment.

Mother Frances Hospital

The Hospital, which is part of the Trinity Mother Frances Hospitals and Clinics, is a 404-bed
acute-care not-for-profit community hospital located in Tyler, Texas. The Hospital received
$7,928,476 in Medicare payments for inpatient hospital claims that included diagnosis code 260


The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00006)   1
for Kwashiorkor during our audit period (CYs 2010 through 2013) based on CMS’s National
Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $2,045,971 of the $7,928,476 in Medicare payments to the Hospital for 160 of
the 530 inpatient hospital claims that contained diagnosis code 260 for Kwashiorkor. We did not
review the remaining 370 claims because the use of diagnosis code 260 did not change the
Medicare payment. We also did not review managed care claims or claims that were under
separate review. We evaluated compliance with selected Medicare billing requirements but did
not use medical review to determine whether the services were medically necessary. This report
does not represent an overall assessment of all claims submitted by the Hospital for Medicare
reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                 FINDING

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on any of the
160 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used either a code for another form of malnutrition or no malnutrition code at all. These
errors resulted in overpayments totaling $779,541. Hospital officials attributed these errors to
misinterpretation of the coding guidelines, issues with the medical coding software program used
to code the diagnoses, and incorrect guidance from a third party consultant.

FEDERAL REQUIREMENTS AND GUIDANCE

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (The Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

In addition, the Medicare Claims Processing Manual requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2).




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00006)   2
INCORRECT USE OF THE DIAGNOSIS CODE FOR KWASHIORKOR

The Hospital did not comply with Medicare billing requirements for Kwashiorkor for all 160
claims we reviewed, resulting in overpayments of $779,541. The coding guidelines establish
diagnosis code 260 for Kwashiorkor. However, our review did not support the billing of this
diagnosis code. Hospital officials attributed these errors to misinterpretation of the coding
guidelines, issues with the medical coding software program used to code the diagnoses, and
incorrect guidance from a third party consultant.

                                       RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare program $779,541 for the incorrectly coded claims and

    •   strengthen controls to ensure full compliance with Medicare billing requirements.

                         MOTHER FRANCES HOSPITAL COMMENTS

In written comments, the Hospital concurred with our finding that all 160 claims that we
reviewed were incorrectly billed with a diagnosis code for Kwashiorkor. The Hospital described
the action it has taken to refund the overpayments and strengthen internal controls over the
billing of Kwashiorkor.
The Hospital’s comments are included as Appendix B.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00006)   3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our audit covered $2,045,971 in Medicare payments to the Hospital for 160 inpatient claims that
contained diagnosis code 260 for Kwashiorkor during the period January 1, 2010, through
December 31, 2013. We did not review claims for which the diagnosis code 260 did not change
the Medicare payment, managed care claims, or claims that were under separate review.

We limited our review of the Hospital’s internal controls to those applicable to the coding of
inpatient hospital claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We evaluated compliance with selected
Medicare billing requirements, but did not use medical review to determine whether the services
were medically necessary. We established reasonable assurance of the authenticity and accuracy
of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

This report does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted our review from April through August 2014.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed Federal laws, regulations, and guidance;

    •	 extracted the Hospital’s inpatient paid claims data from CMS’s National Claims History
       file for the audit period;

    •	 selected all paid claims that included the diagnosis code for Kwashiorkor (260);

    •	 removed all managed care claims and any claims that were previously reviewed by a
       Recovery Audit Contractor;

    •	 removed all claims for which the use of the diagnosis code for Kwashiorkor did not
       change the Medicare payment;

    •	 reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been cancelled or adjusted;

    •	 repriced each selected claim in order to verify that the original payment by the CMS
       contractor was made correctly;




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00006)   4
    •	 requested that the Hospital conduct its own review of the 160 claims to determine

       whether the diagnosis code for Kwashiorkor was used correctly;


    •	 reviewed the information that the Hospital provided;

    •	 discussed the incorrectly coded claims with Hospital officials to determine the underlying
       causes of noncompliance with Medicare requirements; and

    •	 discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00006)   5
                        APPENDIX B: MOTHER FRANCES HOSPITAL


                     TRINITY MOTHER FRANCES

                             MOTHER FRANCES HOSP I TAL

August 13, 2014

Report Number A-03-14-00006

Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Audit Services, Region III
Public Ledger Building, Suite 315
150 S. Independent Mall West
Philadelphia, PA 19106

Dear Mr. Virbitsky:

This letter is in response to your June 26, 2014 correspondence regarding the OIG's review of
Medicare inpatient claims billed by Trinity Mother Frances Hospital ("TMFH") with diagnosis
code 260 (Kwashiorkor). .As requested, this letter sets forth TMFH's comments and concurrence
with the OIG's review.

The OIG's review of Medicare claims submitted by TMFH during calendar years 2010 through
2013 found that TMFH submitted 160 claims which included code 260 (Kwashiorkor) and where
that diagnosis code impacted the total Medicare payment to TMFH. In reviewing these claims,
TMFH concluded that diagnosis code 260 (Kwashiorkor) was incorrectly used on each of the
160 claims listed, resulting in an overpayment to TMFH of $779,541. TMFH has notified
Novitas, its Medicare Administrative Contractor, to begin the standard repayment process to re-
adjudicate these claims and refund any overpayments. The OIG's report number will be
referenced by TMFH.

As to the cause of the incorrect billing, TMFH attributes these errors to a misinterpretation of the
coding guidelines for malnutrition which resulted from a lack of clarity surrounding the use of
code 260. (Kwashiorkor) during the time period of the OIG's review. Both the software in use by
TMFH at that time and guidance from third party consultants lead to the incorrect code
assignment. In sum, these errors occurred despite TMFH's good faith efforts to code
appropriateIy.

By way of corrective action to address this issue, TMFH has strengthened its internal controls and
is providing, on an on-going basis, focused training by nationally recognized consultants with
subject matter expertise to coders, clinical documentation staff and clinical providers on
malnutrition documentation requirements. TMFH has also implemented a coding/billing claim



The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00006)   6
Mr. Stephen Virbitsky
August 1 3, 2014
Page 2

edit in its system that requires additional review for appropriate documentation of any claim with
a provisional code of 260, which review must be performed before the billing process is
finalized.

Trinity Mother Frances Hospital is committed to compliance with the Medicare rules and
regulations. We thank you for the opportunity to correct these claims and be paid appropriately.

If you have any questions, please do not hesitate to contact me.

Sincerely,

/Linda B Moore/

Linda B. Moore
VP/General Counsel and Chief Compliance Officer
Trinity Mother Frances Hospitals and Clinics




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00006)   7
